~    I




                                          INSPECTOR GENERAL
;.                                         DEPARTMENT OF DEFENSE
                                             AOO ARMY NAVY DRIVE
                                        ARLINGTON. VIRGINIA 22202·2884




                                                                                     September 9, 1994


         MEMORANDUM FOR COMPTROLLER OF THE DEPARTMENT OF DEFENSE
         SUBJECT: Antideficiency Act Investigation of Real Property Maintenance, Defense,
                  FY 1993 Supplemental Appropriation (Report No. 94-185)

                 On March 14, 1994, you requested that this office conduct investigations of potential
         Antideficiency Act violations in Defense-wide appropriations. We have completed our
         investigation of the subject appropriation and are providing this report for your use. The
         investigation was conducted in accordance with Office of Management and Budget Circular
         No. A-34, "Instructions on Budget Execution," dated August 26, 1985, and DoD Directive
         7200.1, "Administrative Control of Appropriations," dated July 27, 1987. This investigative
         report constitutes the official report called for by DoD Directive 7200.1. The report contains
         recommendations to correct the problems that were identified.

                The investigation concluded that no Antideficiency Act violation occurred.
         Expenditures reported for the Real Property Maintenance, Defense, Supplemental
         Appropriation Account 97 93 0131 exceeded the authorized and appropriated funds by
         $11,197,518.48 as of March 31, 1994. The excessive expenditures occurred due to computer
         processing errors by the Navy and the Army that erroneously posted Real Property
         Maintenance, Defense, Appropriation Account 97 93/94 0131 transactions, totaling
         $40,284,750.55 and $9,982.00, respectively, to the Real Property Maintenance, Defer.c:P.,
         Supplemental Appropriation Account 97 93 0131. In addition, the Air Force erroneously
         charged a $785.93 travel voucher to the Real Property Maintenance, Defense, Supplemental
         Appropriation Account 97 93 0131 instead of the Operation and Maintenance, Air Force
         Appropriation Account 57 93 3400.

                We also found that the accounting systems used by the Marine Corps and the Army to
         track expenditures against appropriations were not designed to properly account for
         multiple-year appropriations. Those system deficiencies contributed to the resulting errors.

                 The Defense Finance and Accounting Service Cleveland and Indianapolis Centers took
         corrective action in Apri11994 through adjusting entries to the Real Property Maintenance,
         Defense, Supplemental Appropriation Account 97 93 0131 and the Real Property Maintenance,
         Defense, Appropriation Account 97 93/94 0131. The Air Force was not aware of the
         erroneous travel voucher; therefore, it had not taken corrective action. If not corrected, the
         incorrect posting of the travel voucher violates provisions of 31 U.S.C.
                In addition, Headquarters, Marine Corps, requested the Defense Finance and
         Accounting Service Kansas City Center to transfer obligations and disbursements totaling
         $4,391,222.00 from the Real Property Maintenance, Defense Appropriation Account to the
         Supplemental Appropriation. The specific transactions to be moved were not identified;
         therefore, the appropriate accounting entries to support the transfer of obligations and
         disbursements to the Supplemental Appropriation were never prepared, posted to the
         accounting records, or reported on the Treasury Form Standard 224, "Statement of
         Transactions," to the Department of the Treasury. Even though the accounting transactions
         were never made, Defense Finance and Accounting Service Kansas City Center reported the
                                                                                                2


$4,391,222.00 as obligations and disbursements against the Supple{Ilental Appropriation on the
DD Form 1176, "Report on Budget Execution," for October 1993 and subsequent months.
The DD Forms 1176 were submitted electronically, without signature; therefore, we could not
readily establish responsibility for those misstatements. The matter had no effect on the
negative balances; however, failure to correct the DD Forms 1176 could result in other
reporting violations.

        Our report makes recommendations that should improve internal controls pertaining to
budget execution. Please provide your comments to this report indicating concurrence or
nonconcurrence with each recommendation. If you concur, describe the corrective actions
taken or planned, the completion dates for actions already taken, and the estimated dates for
completion of planned actions. If you nonconcur, state your specific reasons for each
nonconcurrence. If appropriate, you may propose alternative methods for accomplishing
desired improvements. Comments should be provided by November 9, 1994.

       If you have any questions concerning this report, please contact Mr. F. Jay Lane at
(703} 604-9140 (DSN 664-9140) or Mr. Kent E. Shaw at (703) 604-9152 (DSN 664-9152).



                                        ~L~ . .-..
                                        Assistant Inspector General
                                               for Auditing

Enclosure

cc:
Commandant, U.S. Marine Corps
Assistant Secretary of the Navy (Financial Management)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Director, Defense Finance and Accounting Service
Director, Washington Headquarters Services
Commanding Officer, Naval Computer and Telecommunications Station
    REPORT ON ANTIDEFICIENCY ACT INVESTIGATION


Appropriation Investigated: Real Property Maintenance, Defense,
                            Supplemental Appropriation
                            Account 97 93 0131

Investigating Entity: Office of the Inspector General, Department of Defense
Date: September 9, 1994

Report of No Violation
     The investigation found no violation of the Antideficiency Act. The negative balance
     in the Real Property Maintenance, Defense, Supplemental Appropriation Account
     97 93 0131 (Supplemental Appropriation) was the result of inaccurate reporting to the
     Department of the Treasury (Treasury) by the Defense Finance and Accounting Service
     (DFAS) Cleveland Center for the Navy and the DFAS Indianapolis Center for the
     Army. Additionally, the Air Force had erroneously charged a travel voucher to the
     Supplemental Appropriation.
     The Army and the Navy transactions were corrected and reported to Treasury on the
     Treasury Form Standard (TFS) 224, "Statement of Transactions," for April 1994.
     Transactions totaling $9,982.00 by the Army and $40,284,750.55 by the Navy were
     reversed; the Supplemental Appropriation was credited; and the Real Property
     Maintenance, Defense Appropriation Account 97 93/94 0131 (RPM,D multiple-year
     appropriation) was correctly debited.      Correction of the errors returned the
     Supplemental Appropriation to a positive balance and did not cause the RPM,D
     multiple-year appropriation to become deficient.        All related obligations and
     disbursements were posted to the correct appropriations in the Navy's, Marine Corps'
     and Army's own internal records. The Air Force travel voucher for $785.93
     erroneously charged against the Supplemental Appropriation had not been removed.
     The DFAS Cleveland Center used reports prepared by the Naval Computer and
     Telecommunications Station (NCTS) that erroneously reflected all Navy and Marine
     Corps disbursements for August and September 1993 for the RPM,D multiple-year
     appropriation as charges against the Supplemental Appropriation.     The related
     obligations and expenditures were properly recorded in the RPM,D multiple-year
     appropriation on Navy and Marine Corps records. Human error and programming
     deficiencies at the NCTS caused the disbursements to be erroneously reported to
     Treasury against the Supplemental Appropriation.
     The DFAS Indianapolis Center posted an adjusting journal entry to the Supplemental
     Appropriation that should have been posted to the RPM,D multiple-year appropriation.
     An accountant made the adjusting entry using an abbreviated appropriation fund
     citation. The entry did not pass through the system edits, which would have added the
     correct complete fund citation.
                                                Report on Antideficiency Act Investigation
                                                                 '
      Air Force personnel in Doha, Qatar, charged a $785.93 plane ticket against the
      Supplemental Appropriation that should have been charged to the Air Force, Operation
      and Maintenance Appropriation Account 57 93 3400. The plane ticket was purchased
      for the Commander, Red Horse Civil Engineering Squadron Program Office, Hurlburt
      Field, to travel from Doha, Qatar, to Hurlburt Field, Florida. The Commander's
      travel orders authorized travel to Lajes Field, Azores, under fund cite 97 3 0131.0200
      and travel to Doha, Qatar, under fund cite 57 3 3400. The first fund cite on the travel
      orders was incomplete and was interpreted as the Supplemental Appropriation instead
      of the RPM,D multiple-year appropriation. The Air Force was not a fund holder for
      the Supplemental Appropriation, but did have funds under the RPM,D multiple-year
      appropriation.
     The Commander did not have a return plane ticket to Hurlburt Field, Florida;
     therefore, Air Force personnel at the U.S. Embassy in Doha, Qatar, issued the return
     ticket and prepared a voucher erroneously citing 97 3 0131.200 instead of 57 3 3400.
     That administrative error increased the negative balance in the Supplemental
     Appropriation.     If not corrected, the transaction violates 31 U.S.C. 1501,
     "Documentary evidence requirement for               government obligations,"     and
     31 U.S.C. 1301, "Application." The charge for the return ticket was reported to
     Treasury by the State Department's disbursing office in Paris, France.

Funds Involved
     The Supplemental Appropriation was established on July 2, 1993, when Congress
     passed Public Law 103-50, "Supplemental Appropriations Act of 1993." Congress
     appropriated "an additional amount of $29,098,000 for the Real Property Maintenance,
     Defense, account" in response to a request from the Assistant Secretary of the Navy
     (Financial Management) to the Comptroller of the Department of Defense for
     supplemental funding to repair flood damage at Marine Corps bases El Toro and
     Camp Pendleton, California.


Fund Holder
     The Department of the Navy was the executive agency for the Supplemental
     Appropriation, and the Marine Corps was the fund holder.


Where the Potential Violation Occurred
     Navy disbursements totaling $19,832,116.07 for August 1993 and $20,452,634.48 for
     September 1993 were erroneously reported to the Treasury by the DFAS Cleveland
     Center through the NCTS as disbursements against the Supplemental Appropriation
     instead of the RPM,D multiple-year appropriation.
     Similarly, the Army transaction for $9,982.00 was also erroneously reported to
     Treasury by the DFAS Indianapolis Center during March 1994 as an adjustment against
     the Supplemental Appropriation instead of the RPM,D multiple-year appropriation.




                                            2
                                                                \
                                               Report on Antideficiency Act Investigation


      Air Force personnel in Doha, Qatar, used the wrong fund cite on a travel voucher.
      The State Department disbursing office in Paris, France, reported the transaction for
      $785.93 against the Supplemental Appropriation in September 1993 for the Air Force,
      even though the Air Force was not a fund holder for the Supplemental Appropriation.


Amount of Fund Authorizations Exceeded
      The Supplemental Appropriation balance in September 1993 was a negative
      $11,187,536.48, reflecting cumulative disbursements of $40,285,536.48 against budget
      authority of $29,098,000. The Army charged an additional $9,982.00 against the
      Supplemental Appropriation in March 1994, resulting in a negative balance of
      $11,197,518.48 as of March 31, 1994.


Amounts Involved in the Potential Violation
     As shown by the table, expenditures reported for the Supplemental Appropriation
     exceeded the authorized and appropriated funds by $11,197,518.48 as of March 31,
     1994.

        Department of the Treasury Summary of Expenditures Charged to the Real
      Property Maintenance, Defense, Supplemental Appropriation Account 97 93 0131
     Reporting        Reported           Disbursements                Resulting
      Month              by            Reported to Treasury          Fund Balance

     Balance
      July 1993                                                     $29,098,000.00
     Aug. 1993          Navy              $19,797,753.68              9,300,246.32
     Aug. 1993          Navy                   34,362.39              9,265,883.93
     Sept. 1993         Navy               20,410,334.80            (11,144,450.87)
     Sept. 1993         Navy                   42,299.68            (11' 186, 750.55)
     Sept. 1993         State
                         Department                785.93           (11,187,536.48)
     Mar. 1994          Army                     9.982.00           (11' 197 ,518.48)
       Total                              $40.295.518.48


Date Transactions Processed
     As the table shows, erroneous expenditure transactions were posted to the Supplemental
     Appropriation during August 1993, September 1993, and March 1994.




                                           3
                                               Report on Antideficiency Act Investigation


Date of Discovery
      In October 1993, the negative balance was discovered by the Defense Accounting
      Office, Arlington, Virginia, an office of the DFAS Cleveland Center, based on the
      Treasury reports TFS 6654, "Undisbursed Appropriation Account - Trial Balance," and
      TFS 6653, "Undisbursed Appropriation Account Ledger," for the period ending
      September 30, 1993.      Headquarters, DFAS, notified the Comptroller of the
      Department of Defense and the DFAS Cleveland Center of the negative balance;
      however, no other action was taken by the DFAS to resolve the negative balance.

     The Navy and Marine Corps internal reporting systems correctly reflected the
     disbursements against the RPM,D multiple-year appropriation and not the Supplemental
     Appropriation. The Navy and the Marine Corps also did not receive copies of the
     TFS 6654 or TFS 6653. The Navy Comptroller and the Headquarters, U.S. Marine
     Corps, were not aware of the negative balance until interviewed during the course of
     our investigation. As a result, the Supplemental Appropriation remained negative for
     6 months without triggering any substantive action to investigate the cause of the
     negative balance. The Treasury reports at the appropriation level are the only place
     where the negative balances were reflected, since Navy and Marine Corps internal
     systems correctly posted the transactions as intended against the RPM,D multiple-year
     appropriation.


Type of Violation
     No Antideficiency Act violation was found. The errors made by the Army and the
     Navy were the result of posting the disbursements to the wrong appropriation account
     at the Treasury. Accounting adjustments were made in April1994 to correct the errors
     and did not result in negative balances in either the RPM,D multiple-year appropriation
     or the Supplemental Appropriation. The incorrect posting of the Air Force travel
     voucher was an administrative error. If not corrected, the transaction violates
     31 U.S.C. 1501, "Documentary evidence requirement for government obligations,"
     and 31 U.S.C. 1301, "Application."


Name and Position of the Responsible Person
     Since no violation occurred as a result of incorrect posting of the Navy and the Army
     transactions, we did not attempt to identify the specific persons responsible for those
     errors. However, the accounting errors occurred at the NCTS, Washington, D.C., and
     the DFAS Indianapolis Center and were directly or indirectly the result of system
     errors. The Air Force fiscal officer in the United States Liaison Office at the
     U.S. Embassy in Doha, Qatar, cited the wrong fund on the travel voucher. No
     substantive action was taken by Headquarters, DFAS; the Defense Accounting Office,
     Arlington, Virginia; the DFAS Cleveland Center; or the Navy to identify the cause for
     the negative balance in the Supplemental Appropriation.




                                           4
~   .                                                   Report on Antic\eficiency Act Investigation


        Disciplinary Action Taken
             No disciplinary action had been taken, and we do not recommend that any be taken.


        System Adequacy
             The system the Marine Corps uses to track its appropriation allocations, the
             Headquarters Accounting System (HAS), and the Army system, Expenditure, are both
             inadequate because they allow space for only one digit to identify the appropriation
             year. Treasury assigns the appropriation account codes using both the beginning and
             ending fiscal years for multiple-year appropriations. HAS and Expenditure were
             originally designed to track Operation and Maintenance funds (traditionally an annual
             appropriation) and were never upgraded to handle multiple-year appropriations.

             Marine Corps transactions are reported in detail to the DFAS Kansas City Center,
             which reports the transactions in summary to DFAS Cleveland Center for incorporation
             in the Navy Centralized Expenditure and Reimbursement Processing System (CERPS)
             for reporting to the Office of the Secretary of Defense and the Treasury. The
             mainframe computers that process the Navy and Marine Corps data for both the DFAS
             Kansas City arid Cleveland Centers are located at the NCTS in the Washington Navy
             Yard, Washington, D.C. NCTS receives the data electronically transmitted by the
             various disbursing offices, processes the data using the Navy's CERPS, and transmits
             all output and reports to the DFAS Centers. Similarly, when notified to do so by the
             DFAS, NCTS converts the monthly summary data into the Treasury format and
             electronically transmits it to Treasury. Because several of the CERPS "feeder"
             ~ystems, such as HAS, report only the beginning year of an appropriation, CERPS
             extracts only the appropriation beginning year from the transactions summarized for
             reporting to Treasury. CERPS then refers to a system table of multiple-year
             appropriations to determine the ending year for the appropriation. All multiple-year
             appropriations should be loaded into that table. If an appropriation is not found in the
             table, the system default assigns the same ending year as the beginning year, reporting
             it as an annual appropriation.
             Personnel at the NCTS stated that the RPM,D multiple-year appropriation was not
             properly loaded into the table at the start of FY 1993 because the NCTS did not receive
             notice of the appropriation from the DFAS Cleveland Center. Consequently, all the
             reports to Treasury from NCTS for the DFAS Cleveland Center submitted during
             FY 1993 mistakenly reported transactions for the RPM,D multiple-year appropriation
             available for FYs 1993 and 1994, as if it were an annual appropriation under the
             account code later used for the Supplemental Appropriation.
             Since the Supplemental Appropriation account number did not exist on Treasury's
             records until August 1993, Treasury posted the transactions so reported for
             October 1992 through July 1993 to the RPM,D multiple-year appropriation account.
             That meant the transactions ended up being posted at Treasury against the proper
             appropriation account. Since the transactions were posted correctly, the DF AS and
             NCTS were not aware of the reporting errors. Once the Treasury had established the
             Supplemental Appropriation as a valid annual appropriation, however, the August and
             September RPM,D multiple-year appropriation transactions were posted to the



                                                    5
•
                                                    Report on Antideficiency Act Investigation


          Supplemental Appropriation in excess of budget authority, resulting in a negative
          account balance.

         The Army Expenditure system also uses system edit tables to differentiate between
         multiple-year and annual appropriations when disbursement data is reported to the
         Treasury. The Expenditure system obtains disbursing data from Army field activities
         using electJ:onic file transfers. Similar to the Marine Corps system, the field data only
         has one character for the fiscal year in the appropriation coding. The disbursement
         data is processed through edit tables that convert the single number for the fiscal year
         into a multiple-year appropriation or an annual appropriation expenditure. Once the
         edits are complete, the expenditure data is summarized and reported to the Treasury on
         various reports, including the TFS 224.
         The Army error for $9,982.00 occurred when an accountant made an adjusting journal
         entry for the RPM,D multiple-year appropriation with an incomplete appropriation
         fund citation that only included the beginning fiscal year instead of both the beginning
         and ending fiscal years. The journal entry was not processed through the edit tables,
         which would have converted the transaction to the proper multiple-year appropriation
         fund citation. Consequently, when reported to the Treasury, the transaction was posted
         against the Supplemental Appropriation.


    Other Matters - Transfer of Expenditures between Appropriations
         The Marine Corps requested that the DFAS Kansas City Center transfer to the
         Supplemental Appropriation obligations and disbursements totaling $4,391,222.00 that
         had been previously recorded in the RPM,D multiple-year appropriation. The
         appropriate accounting entries to support the shift of obligations and disbursements to
         the Supplemental Appropriation were never prepared, posted to the accounting records,
         or reported on the TFS 224 to Treasury because the Marine Corps had not identified
         the specific transactions to be moved. Even though the accounting transactions were
         never made, the DFAS Kansas City Center reported the $4,391,222.00 as obligations
         and disbursements against the Supplemental Appropriation on the DD Forms 1176,
         "Report on Budget Execution," for October 1993 and subsequent months. The
         DD Forms 1176 were submitted electronically, without signature; therefore, we could
         not readily establish responsibility for the misstatements.       Because the specific
         obligations and disbursements making up the $4,391,222.00 were not identified, we
         could not determine whether or not they were properly chargeable to the Supplemental
         Appropriation. Since nothing related to the requested shift of obligations and
         disbursements between appropriations was recorded in the accounting records or
         reported to Treasury, the matter had no effect on the negative balances. However,
         failure to correct the DD Forms 1176 could result in other reporting violations.


    Recommendations for Corrective Action
         The Comptroller of the Department of Defense should:

         1. Establish policy and procedures to require monthly reconciliation of Treasury Form
         Standard 224, "Statement of Transactions," to the Department of Treasury reports



                                                6
'.;


r     9                                              Report on Antideficiency Act Investigation


          Treasury Form Standard 6654, "Undisbursed Appropriation Account - Trial Balance;"
          Treasury Form Standard 6653, "Undisbursed Appropriation Account Ledger;" and
          Defense Finance and Accounting Service Cash Book for Defense-wide appropriations.
          2. Direct systems changes to the Expenditure System and the Headquarters Accounting
          System used by the Army and the Marine Corps, respectively, to provide the capability
          to record the complete appropriation account number assigned by the Department of the
          Treasury. .
          3. Determine which accounting systems throughout the Department of Defense do not
          have the capability to record the complete appropriation account number assigned by
          the Department of the Treasury and direct system changes that would allow the
          inadequate accounting systems to report complete appropriation numbers without using
          a conversion table.
          4. Require that a copy of all DD Forms 1176, "Report on Budget Execution," be
          signed by the responsible official at each level and retained on file for review, so that
          responsibility for accuracy of the report can be established. The DD Forms 1176
          should be retained until the appropriation has been closed.
          5. Require that the Assistant Secretary of the Air Force (Financial Management and
          Comptroller) correct the $785.93 erroneous disbursement from the Real Property
          Maintenance, Defense, Supplemental Appropriation Account 97 93 0131 and charge
          the appropriate account.

          6. Require the Commandant of the Marine Corps and the Director, Defense Finance
          and Accounting Service Kansas City Center, to:

                  a. Remove the $4,391,222.00 of obligations and disbursements reported on
          lines 7 and 14 of the October 1993 DD Form 1176, "Report on Budget Execution," for
          FY 1993 Real Property Maintenance, Defense Supplemental Appropriation Account
          97 93 0131 and subsequent months as applicable.
                 b. Verify that the unsupported $4,391,222.00 of obligations and disbursements
          included on lines 7 and 14 of the DD Form 1176 since October 1993 are not reported
          on the Financial Management Service Form 2108, "Year-End Closing Statement," for
          FY 1994.

          7. Require that the Director, Defense Finance and Accounting Service Kansas City
          Center, review the internal controls for preparation of the DD Form 1176, ~Report on
          Budget Execution," that ensure accurate reporting consistent with the accounting
          records of transactions processed; investigate the circumstances surrounding preparation
          of the inaccurate DD Forms 1176 submitted for the FY 1993 Real Property
          Maintenance, Defense Supplemental Appropriation Account 97 93 0131 since
          October 1993; and take appropriate administrative action to ensure internal controls are
          in place and followed for accurate preparation of DD Forms 1176.




                                                 7
